November 10, 2010

LINDA J. WELCH
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Audit Report – Excess Space in Mail Processing Facilities in the Suncoast
         District (Report Number EN-AR-11-001)

This report presents the results of our audit of the U.S. Postal Service’s efforts to optimize
the mail processing network (Project Number 10XG031EN000). Our objective was to
assess excess space in mail processing facilities in the Suncoast District. This self-
initiated audit addresses financial and operational risks. See Appendix A for additional
information about this audit.

Because of a severe economic downturn and electronic diversion of the mail, the Postal
Service has experienced a substantial decline in mail volume resulting in excess mail
processing capacity. Over the last 2 years, management has implemented two plant
consolidations and one district consolidation in the Southeast Area to improve operational
efficiency. These consolidations generated over 100,000 square feet (SF) of excess
space in the Suncoast District.

Conclusion

The Postal Service has implemented various actions to streamline the plant network and
eliminate excess capacity, but opportunities exist to improve the process and achieve
additional cost savings. While the Postal Service has ongoing initiatives to optimize retail
and delivery facility spaces, efforts to eliminate excess space in the mail processing
network have been limited. The Postal Service could improve guidance on identifying and
reporting excess space at mail processing facilities and develop accurate and reliable
information in databases.

Based on our review and discussions with management, there are various opportunities
to improve the use of space at plants in the Suncoast District. These opportunities include
additional plant consolidations1 or relocating retail operations into mail processing
facilities, which could generate an average cost savings of approximately $1.26 to $1.93
million annually. See Appendix B for our detailed analysis.
1
 The Postal Service has initiated a feasibility study to evaluate the transfer of mail processing operations from the
Daytona Beach, FL Processing and Distribution Facility (P&DF) with those performed at the Mid-Florida, FL Processing
and Distribution Center (P&DC).
Excess Space in Mail Processing Facilities                                    EN-AR-11-001
 in the Suncoast District



Congress recognized in the Postal Accountability and Enhancement Act of 20062 that the
Postal Service has more facilities than it needs and strongly encouraged streamlining the
network. The Postal Service’s current financial situation makes it essential to review and
eliminate excess capacity in the network. Effective management of excess space
resulting from consolidations should reduce costs in support of the Postal Service’s
realignment initiatives.

Although there are many challenges associated with consolidating mail processing
operations and closing unneeded plants and retail locations, the process is necessary
due to declining mail volume and a growing deficit.

Postal Service Actions – Management recognized the need to effectively manage its real
estate assets. In April 2008, the Postal Service initiated a facility optimization program
(FOP) designed to address management of excess space in delivery and retail
operations. In addition, managers in the Suncoast District periodically notify the Southeast
Area Facilities Service Office (FSO) of existing excess space in mail processing facilities
and suggest potential consolidation opportunities.

We recommend the vice president, Facilities:

1. Establish clear guidance for reporting excess space that could be optimized in mail
   processing facilities.

We recommend the vice president, Facilities, in coordination with the vice president,
Southeast Area Operations:

2. Ensure that excess space information for mail processing facilities recorded in the
   Postal Service system databases is accurate and complete.

3. Review and implement the most effective space optimization options for the
   Manasota, Mid-Florida, and St. Petersburg mail processing facilities in the Suncoast
   District.




Management’s Comments


2
    Public Law 109-435, Section 302, December 2006.


                                                      2
Excess Space in Mail Processing Facilities                                    EN-AR-11-001
 in the Suncoast District

Management did not agree or disagree with recommendation 1, but stated they would
review facilities to determine excess square footage. Management will update this data in
the electronic Facilities Management System and has attached a flowchart of the revised
process to their response. They expect every mail processing facility to undergo this
review over the next 3 years.

Management agreed with recommendations 2 and 3. For recommendation 2,
management issued an updated policy letter on September 29, 2010 requiring quarterly
reviews of the facility database for accuracy. Management will begin the reviews in fiscal
year (FY) 2011 and district managers in the Southeast Area will certify them. For
recommendation 3, management stated a study is underway for consolidating the
Daytona Beach Processing and Distribution Center (P&DC) and moving its workload into
the Mid-Florida P&DC. Management is also updating their Southeast Area Facility
Optimization plans, including plans for the Manasota and St. Petersburg facilities. They
believe the updated plans will determine the best possible use of the excess space.
Management did not agree with the monetary impact of $19.3 million because they
believe we did not factor some costs into the estimate. See Appendix D for
management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions taken and planned
should resolve the issues identified in the report. While management’s comments
regarding recommendation 1 do not specifically address policy, planned corrective
actions to revise the process used to assess space in mail processing facilities will
resolve this issue.

The OIG considers recommendation 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                             3
Excess Space in Mail Processing Facilities                                   EN-AR-11-001
 in the Suncoast District

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Network Optimization, or me at 703-248-2100.
    E-Signed by James Ballard
 VERIFY authenticity with ApproveIt




For
Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations
Attachment

cc: Steven J. Forte
    David M. Patterson
    Thomas J. Russell
    Corporate Audit and Response Management




                                             4
Excess Space in Mail Processing Facilities                                                      EN-AR-11-001
 in the Suncoast District


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In March 2009 testimony before Congress,3 the U.S. Government Accountability Office
(GAO) recommended that the Postal Service take urgent action to streamline their mail
processing and retail networks, as the agency no longer has sufficient revenue to cover
the cost of maintaining its large network. Furthermore, the GAO stated it was necessary
for the Postal Service to consider whether it was cost effective to retain underused
facilities and take action to right size its network.

In April 2008, the Postal Service initiated the FOP to balance the portfolio of existing
delivery facilities with the Postal Service’s current and projected space needs. The FOP
program includes the Postal Service Facility Space Optimization studies, also known as
“Node studies,” which management uses to identify consolidation opportunities.

On May 20, 2009, a senior Postal Service official testified before Congress that the
primary driver of Area Mail Processing (AMP) consolidation activities over the last several
years has been the steady decline of single-piece First-Class Mail® letters. From a
business perspective, it is vital that the Postal Service pursue consolidation opportunities.
According to the official, these consolidations will help the Postal Service contain costs
and increase efficiency, both necessary to maintain strong service performance.

As of June 2010, the Southeast Area was leasing over 11 million SF of space at a cost of
approximately $105 million per year. The Suncoast District leases or owns 405 facilities,
with over 5.8 million interior SF, in support of mail processing and delivery. The Suncoast
District pays an annual rent of over $18 million. All facilities addressed in this report are
part of the Suncoast District in the Southeast Area (see Map 1).




3
 GAO-09-475T, Testimony before the Subcommittee on Federal Workforce, Postal Service, and the District of
Columbia, Committee on Oversight and Government Reform, House of Representatives, dated March 25, 2009.


                                                       5
Excess Space in Mail Processing Facilities                                                                                                EN-AR-11-001
 in the Suncoast District



                     Map 1: Districts within the Postal Service Southeast Area

                                            Tennessee
                                            307, 370-385                                                                 Southeast Area
                                                                                                                               FY 2010
                                                                  Atlanta
                                                                300-303,
                                                                305, 306,
                                                                311, 399
                                              Alabama
                            Mississippi
                                             350-352, 354-368
                             369, 386-397
                                                                      South Georgia
                                                                     298, 299, 304, 308-310,
                                                                          312-319, 398




                                                                   North Florida
                                                                                320-326, 344




                                                                                          Suncoast
                                                                                               327-329,
                                                                                               335-339,
                                                                                               341, 342,
                                                                                               346, 347
                                                                                                   South Florida
                                                                                                              330-334,
                                                                                                              340, 349




Two AMP consolidations and the consolidation of a district left over 100,000 SF of excess
space at three P&DCs. In April 2008, the Postal Service implemented AMP consolidations
at the St. Petersburg P&DC and in April 2010 at the Manasota P&DC. With completion of
the AMP consolidations, 65,798 SF of excess space was created. In August 2009, the
Postal Service realigned its Southeast Area Districts by eliminating the Central Florida
District and its offices located at the Mid-Florida P&DC. The realignment created
approximately 35,636 SF of excess space in the Mid-Florida P&DC.

Challenges Associated with Closures /Consolidations of Postal Service Facilities

The Postal Service encounters various challenges in their efforts to reduce costs through
plant and retail network consolidations and realignments. Consolidating mail processing
operations and closing unneeded plants and retail locations is controversial, but
necessary because of declining mail volume and a growing deficit. Some of the
challenges include:

          Strict Post Office (PO) closure and consolidation requirements outlined in the
           public law.4

          Strong resistance from local communities, employees, and lawmakers to closing
           and consolidating plant and retail facilities.

          Facilities with long-term leases, including some without termination clauses.



4
    Title 39 U.S.C. Section 404(d).


                                                                                      6
Excess Space in Mail Processing Facilities                                         EN-AR-11-001
 in the Suncoast District


OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to assess excess space in mail processing facilities located in the
Suncoast District. To accomplish our objective we:

       Reviewed the following criteria:

        ▫ U.S. Postal Service Administrative Support Manual, Issue 13, July 1999.

        ▫ U.S. Postal Service Handbook F66A, Investment Policies and Procedures –
          Major Facilities, January 2006.

        ▫ U.S. Postal Service Handbook F66, General Investment Policies and
          Procedures, November 2005.

        ▫ U.S. Postal Service Management Instruction – Facility Planning Concept, AS-
          520-96-9, November 1996.

        ▫ U.S. Postal Service Area Mail Processing Guidelines, March 2008.

        ▫ U.S. Postal Service Strategic Transformation Plan 2006–2010, September
          2005.

       Interviewed Postal Service officials.

       Visited the following mail processing and retail facilities in the Suncoast District:

        ▫   St. Petersburg P&DC.
        ▫   Manasota P&DC.
        ▫   Mid-Florida P&DC.
        ▫   Tampa P&DC.
        ▫   Orlando Logistics and Distribution Center.
        ▫   St. Petersburg Main Post Office (MPO).
        ▫   Sarasota Southgate Station.
        ▫   Tallevast MPO.
        ▫   Lake Mary MPO.
        ▫   Sarasota MPO.

       Reviewed FY 2009 data from Postal Service management systems including the
        electronic Facilities Management System (eFMS), the Enterprise Data Warehouse
        (EDW), the Facilities Database System, and electronic Maintenance Activity
        Reporting & Scheduling System (eMARS) to determine excess space reported in
        the Suncoast District. To determine transportation costs, we reviewed FY 2009
        data from the Transportation Contracting Support System (TCSS) and the Vehicle
        Information Transportation Analysis and Logistics System (VITAL).



                                                7
Excess Space in Mail Processing Facilities                                           EN-AR-11-001
 in the Suncoast District

       Measured excess space at the Manasota, Mid-Florida, and St. Petersburg P&DCs
        with the assistance of the facilities’ industrial engineers and maintenance manager.

       Performed cost savings analyses of excess space and determined potential cost
        savings.

       Discussed our methodology with Southeast Area FSO management.

We conducted this performance audit from March through November 2010, in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on September 22, 2010, and
included their comments where appropriate. Management elected to waive an exit
conference.

We did not audit the database systems, but performed a limited data integrity review to
support our data reliance. We determined that with the exception of excess space
measurements recorded for plants, eFMS data was sufficiently reliable for the purposes
of this report. In lieu of using excess space data from the eFMS database, we measured
excess space at the facilities with the assistance of the facilities’ managers.

PRIOR AUDIT COVERAGE

                                  Report         Final
       Report Title              Number       Report Date                Report Results
 Use of Existing Postal-       SA-AR-07-006    2/27/2007    The Postal Service did not monitor or
 Owned Space                                                actively track and report underused and
                                                            vacant space. As a result, there was no
                                                            way to ensure the areas optimized the
                                                            use of space to avoid future leasing
                                                            costs. We recommended the Postal
                                                            Service develop consistent procedures
                                                            for communication among installation
                                                            heads, district managers, and FSOs to
                                                            identify and track underutilized and
                                                            vacant space. Management agreed
                                                            with the recommendation.
 Location of Southeast         SA-MA-08-002    6/17/2008    The Postal Service may benefit from
 Area Office Space                                          the Southeast Area office being located
                                                            at other locations within the area they
                                                            serve. Management agreed with the
                                                            recommendation.




                                                 8
Excess Space in Mail Processing Facilities                                               EN-AR-11-001
 in the Suncoast District


                                  Report         Final
        Report Title             Number       Report Date                  Report Results
 Status Report on the          EN-AR-10-001    1/7/2010     Between FYs 2005-2009, the Postal
 Postal Service’s Network                                   Service made progress in its effort to
 Rationalization Initiatives                                streamline its mail processing and
                                                            transportation infrastructure; however,
                                                            management was unable to adjust
                                                            resources to offset mail volume declines
                                                            fully, resulting in a deteriorating financial
                                                            condition. Management took
                                                            unprecedented action to reduce costs;
                                                            additional opportunities remained to
                                                            reduce excess capacity in the plant
                                                            network. We recommended
                                                            management develop and document
                                                            specific criteria to identify consolidation
                                                            opportunities; develop a periodic
                                                            (annual) review process using a top-
                                                            down methodology to ensure
                                                            consistency in identifying consolidation
                                                            opportunities; aggressively pursue
                                                            P&DC and other plant facility closures
                                                            to eliminate excess plant capacity.
                                                            Management agreed with the first two
                                                            recommendations and agreed in part
                                                            with the third.
 Manasota Processing           EN-AR-10-003    2/12/2010    The consolidation should increase
 and Distribution Center                                    efficiency, reduce processing costs, and
 Consolidation                                              improve service in support of the Postal
                                                            Service’s network streamlining efforts.
                                                            Management agreed with the findings
                                                            and recommendations.
 Lakeland Processing and       EN-AR-10-004    2/12/2010    The consolidation should increase
 Distribution Center                                        efficiency, reduce processing costs, and
 Consolidation                                              improve service in support of the Postal
                                                            Service’s network streamlining efforts.
                                                            There were no recommendations and
                                                            management agreed with the
                                                            conclusions.




                                                 9
Excess Space in Mail Processing Facilities                                              EN-AR-11-001
 in the Suncoast District


                                  Report         Final
         Report Title            Number       Report Date                  Report Results
 Facility Optimization:        DA-AR-10-008    8/25/2010    The Northern New Jersey District has
 Northern New Jersey                                        1.98 million SF in excess of needs
 District                                                   suggested by workload. We estimated if
                                                            the district initiates disposal action for
                                                            the excess space we identified, there is
                                                            a potential opportunity to realize
                                                            $157,963,990 over typical and
                                                            remaining lease terms. Management
                                                            agreed with our recommendations.
                                                            However, management disagreed with
                                                            the methodology used to calculate
                                                            excess space, the cost factors used to
                                                            value the excess space and the
                                                            calculation of the monetary impact
                                                            reported.
 Facility Optimization:        DA-AR-10-009    8/25/2010    The Chicago District has 740,529 SF in
 Chicago District                                           excess of needs suggested by
                                                            workload. We estimated if the district
                                                            initiates disposal action for the excess
                                                            space we identified, there is a potential
                                                            opportunity to realize $23,517,019 over
                                                            typical and remaining lease terms.
                                                            Management agreed with our
                                                            recommendations. However,
                                                            management did not agree with the
                                                            amount of excess space or the potential
                                                            monetary impact reported and
                                                            disagreed with the methodology used to
                                                            calculate excess space, the cost factors
                                                            used to value the excess space and the
                                                            calculation of the monetary impact
                                                            reported.
 Facility Optimization:        DA-AR-10-010    8/25/2010    The New York District has 2.4 million
 New York District                                          SF in excess of needs suggested by
                                                            workload. We estimated if the district
                                                            initiates disposal action for the excess
                                                            space we identified, there is a potential
                                                            opportunity to realize $446,258,222
                                                            over typical and remaining lease terms.
                                                            Management agreed with our
                                                            recommendation to develop a more
                                                            accurate process and additional
                                                            metrics. However, management did not
                                                            agree with the amount of excess space
                                                            or the potential monetary impact
                                                            reported and disagreed with the
                                                            methodology used to calculate excess
                                                            space, the cost factors used to value
                                                            the excess space and the calculation of
                                                            the monetary impact reported.




                                                10
Excess Space in Mail Processing Facilities                                            EN-AR-11-001
 in the Suncoast District


                                 Report         Final
          Report Title           Number      Report Date                Report Results
 U.S. Postal Service: Mail     GAO-10-731     6/16/2010    The Postal Service expects an annual
 Processing Network                                        cost savings of approximately $98.5
 Initiatives Progressing,                                  million for 29 AMP consolidations
 and Guidance for                                          approved and implemented between
 Consolidating Area Mail                                   October 2008 and March 2010. The
 Processing Operations                                     Postal Service plans to make the AMP
 Being Followed                                            consolidation process an ongoing effort
                                                           to reduce costs and increase efficiency.




                                               11
Excess Space in Mail Processing Facilities                                                         EN-AR-11-001
 in the Suncoast District


                                 APPENDIX B: DETAILED ANALYSIS

Reporting and Monitoring Excess Space in Mail Processing Facilities

We found that the Postal Service could improve management of excess space at mail
processing facilities in the Suncoast District. The Postal Service has ongoing initiatives to
enhance space optimization at carrier annexes and retail operation facilities. However,
current practices for reporting and monitoring excess space at mail processing facilities in
the Suncoast District do not allow for effective management of excess space.

       The Southeast Area FSO relies on district managers to identify and report excess
        space in mail processing facilities during district meetings by telephone or email
        instead of through a formal documented process supported by clear guidance.

       Excess space information for mail processing facilities reported in the Postal
        Service’s electronic eFMS database was inaccurate. We measured excess space
        at three P&DC facilities with the assistance of the facilities’ industrial engineers and
        maintenance managers. We found a total 101,434 SF of vacant excess space
        versus the 516,374 SF reported in the eFMS database. See Table 1 for reported
        and measured excess space:

              Table 1: Excess Space Reported and Measured in Square Feet
                                                       Reported in           OIG
                              Facility Name              eFMS            Measurements
                         Manasota P&DC                     192,340              56,562
                         Mid-Florida P&DC                  206,536              35,636
                         St. Petersburg P&DC               117,498               9,236
                                   Total                   516,374             101,434

According to Postal Service officials, the reason for the wide disparity is that mail
processing facilities excess space is reported based on delivery and retail operational
metrics; however, a new initiative is underway to improve reporting of excess space at
plants.

Excess Space Guidance and Database Information

Postal Service guidance5 for identifying and reporting excess space in mail processing
facilities is not clear. The guidance does require that management report all excess space
in Postal Service buildings or undeveloped sites and addresses disposal or sale of excess
Postal Service-owned property, but does not address optimization of excess space in mail
processing facilities.



5
 Administrative Service Manual 13, Chapter 5, Sections 513 and 517, Facilities and Equipment, July 13, 1999, updated
with Postal Bulletin revisions through November 19, 2009.


                                                        12
Excess Space in Mail Processing Facilities                                          EN-AR-11-001
 in the Suncoast District

Because the guidance is not clear, FSO personnel must rely on managers to bring excess
space information to their attention to enable them to take necessary action. As a result,
FSO personnel are not always able to document and monitor the amount of excess space
to ensure timely disposition or use.

Further, excess space information in the Postal Service’s eFMS database for mail
processing facilities is inaccurate. As a result, it is not a reliable source for identifying the
amount of excess space in these facilities. Postal Service officials were aware of the
discrepancies and stated they plan to correct the facility databases with accurate
measurements from all mail processing facilities in the Suncoast District. Inaccurate and
incomplete information in the Postal Service system database may hinder effective and
timely disposition of excess space.

Impacts of Plant Consolidations

The lack of clear guidance and inaccurate excess space information in mail processing
facilities does not allow for effective usage and timely disposition of excess space
generated from Postal Service realignment initiatives. Network realignment initiatives,
such as AMP consolidations, could create excess space in mail processing facilities. As a
result, the Postal Service may be missing opportunities to optimize space utilization,
reduce future lease costs, and realize additional consolidation savings.

Potential Opportunities for Cost Savings

The Postal Service has an opportunity to save approximately $19.3 million by
consolidating Post Offices, branches, carrier annexes, and/or stations within a 10-mile
radius of one of three P&DC’s with excess space. There is usable excess space at the
Manasota, Mid-Florida, and St. Petersburg P&DCs in the Suncoast District to consolidate
retail and carrier facilities. Table 2 shows the percentage of interior SF at the P&DCs that
the OIG team identified as excess space during the review. The table also shows the
period of time excess space was available prior to our visit.

                          Table 2: Impacted Mail Processing Facilities
                                                 Total      Time Excess
                                             Percentage      Space was
                                              of Excess   Available Prior to
                              P&DC              Space       OIG Review
                         Manasota                21%          0 months
                         Mid-Florida             11%          7 months
                         St. Petersburg           6%         23 months




                                                  13
Excess Space in Mail Processing Facilities                                                EN-AR-11-001
 in the Suncoast District

Potential relocations of retail and carrier operations to mail processing facilities could
generate savings ranging from approximately $12.7 to $19.3 million over a 10-year
period. We identified nine potential relocation opportunities that could generate savings.

In determining potential savings and relocation opportunities, we reviewed the following:

       Type of facility (Post Office, branch, station, or annex).
       Distance from the P&DC (within a 10-mile radius).
       Excess usable space at the P&DC.
       Interior square footage required by the relocating facility.
       Type of property (owned or leased).

In determining net present value cash flow (see Appendix C), we reviewed and analyzed
the following:

       Property value in terms of ownership and leased term years of the facility.
       Utility costs associated with the moving facility.
       Changes to transportation costs.
       Staffing changes for labor.
       Build-out costs associated with implementing optimization actions.

In determining potential relocation requirements, we reviewed and considered the
following:

       Availability and space for PO boxes.
       Space for carrier stations.
       Workroom floor requirements.
       Parking for customers and employees.

Potential Usage of Excess Space at the Manasota P&DC

There is a valid business case for moving delivery and retail operations into excess space
located at the Manasota P&DC, which had approximately 56,600 SF of excess space
available. See Table 3 for potential relocation opportunities and savings. See Appendix C
for monetary impact calculations

              Table 3: Potential Manasota P&DC Consolidation Candidates
                                                                                            Potential
                                               Distance    Interior Square               Present Value
                                 Type of     from P&DC      Feet Required    Type of    of Savings Over
         Facility Name           Facility       (Miles)     for Relocation   Property       10 Years
   Sarasota Southgate            Station          9.0                6,794    Leased          $2,397,406
   Station
   Sarasota Glengarry            Station        8.0                28,896    Leased          $2,947,122
   Station




                                                      14
Excess Space in Mail Processing Facilities                                                   EN-AR-11-001
 in the Suncoast District

Relocating either the Sarasota Southgate Station or the Sarasota Glengarry Station into
the Manasota plant would generate savings, but the greater opportunity would be to
relocate the Sarasota Glengarry Station. Table 4 shows existing functions and floor plan
requirements for the two facilities.

                       Table 4: Potential Candidates Floor Plan Requirements

                                          Retail                    P.O.        Workroom     Carrier
              Facility Name              Counter      Lobby        Boxes         Floor       Stations
        Sarasota Southgate Station          X           X            X             X            X
        Sarasota Glengarry Station          X           X            X             X            X

Option A: Move the Sarasota Southgate Station delivery and retail operations into the
Manasota P&DC. This option could save approximately $2.4 million over a 10-year period
and appears to be a good cost savings opportunity. The Sarasota Southgate Station
building is leased property. Management could relocate the current staff to the Manasota
P&DC. The Manasota P&DC was designed to include a delivery and retail unit. We
included $800,000 in build-out costs when determining the potential savings.

Option B: Move the Sarasota Glengarry Station into the Manasota P&DC. This option
could save over $2.9 million over a 10-year period and appears to be the best cost
savings opportunity.  

Due to the amount of available excess space, either one of the above options may be
feasible for the Manasota P&DC. The Postal Service could pursue other potential
opportunities in addition to moving the Southgate and Glengarry Stations. However, we
elected not to address them in this report because of their distance from the P&DC.

Potential Usage of Excess Space at the Mid-Florida P&DC

There is a valid business case for moving delivery and retail operations into the Mid-
Florida P&DC, which has approximately 35,600 SF of excess space. Table 5 lists the four
Retail and Delivery units that management could relocate to the Mid-Florida P&DC. See
Appendix C for the monetary impact calculation.

                Table 5: Potential Mid-Florida P&DC Consolidation Candidates

                                                   Distance                                  Potential
                                                     from        Interior SF               Present Value
                                   Type of           P&DC       Required for    Type of     of Savings
              Facility Name         Facility        (Miles)      Relocation     Property   Over 10 Years
     Lake Mary Main Office       Post Office          2.7              19,080    Owned        $2,464,875
     Longwood Main Office        Post Office          7.5              17,142    Owned        $4,586,523
     Lake Monroe Main Office     Post Office          4.0               2,432    Owned         $753,0026
     Sanford Carrier Annex       Carrier Annex        8.0              19,977    Leased         $754,188



6
    We pulled the data from the eMARS because eFMS data was missing.


                                                       15
Excess Space in Mail Processing Facilities                                          EN-AR-11-001
 in the Suncoast District

The Postal Service has an opportunity to relocate the Lake Mary MPO or Longwood MPO
or consolidate a combination of facilities such as the Lake Monroe and Sanford Carrier
Annex with potential savings of over $4.5 million for a 10-year period. Table 6 shows
functions and floor plan requirements for the four facilities.

                  Table 6: Potential Candidates Floor Plan Requirements

                                         Retail            P.O.   Workroom      Carrier
               Facility Name            Counter   Lobby   Boxes    Floor        Stations
          Lake Mary Main Office            X        X       X        X             X
          Longwood Main Office             X        X       X        X             X
          Lake Monroe Main Office          X        X       X
          Sanford Carrier Annex                                        X           X

See below for potential relocation options:

Option A: Move the Lake Mary MPO into the Mid-Florida P&DC. This option could save
approximately $2.5 million for a 10-year period. The Suncoast district manager is already
considering this option.

 Illustration 1 – Sign at Mid-Florida P&DC Providing Directions to the Nearest POs




The sign in Illustration 1 directs customers to visit retail facilities within 3 miles of the Mid-
Florida P&DC.

Option B: Relocate the Longwood MPO into the Mid-Florida P&DC, which could save
approximately $4.5 million over a 10-year period.

Option C: Move the Lake Monroe MPO and the Sanford Carrier Annex into the Mid-
Florida P&DC. This could save approximately $1.5 million over a 10-year period. The
excess space in the Mid-Florida P&DC could accommodate both units.


                                                  16
 Excess Space in Mail Processing Facilities                                                      EN-AR-11-001
  in the Suncoast District



 Due to the amount of available excess space, only one of the above options may be
 feasible for the Mid-Florida P&DC. In addition, the Postal Service is considering a full
 consolidation of the Daytona Beach P&DF into the Mid-Florida P&DC. These options may
 not be applicable if the consolidation takes place.

 Potential Usage of Excess Space at the St. Petersburg P&DC

 While the Postal Service has already initiated action to consolidate the St. Petersburg
 Central Station into the St. Petersburg P&DC, we concluded that there is a valid business
 case for an additional consolidation. The P&DC has an MPO with available retail space.

 The P&DC facility will have 9,236 SF of potential excess space after moving the carriers
 in from the St. Petersburg Central Station, according to a Southeast Area Node Study. An
 additional consolidation opportunity exists for the remaining excess space.

 There are over ten stations less than 10 miles from the St Petersburg P&DC. Of those
 stations, either the Cross Roads Station or the Gulfwinds Station could be relocated to the
 St. Petersburg P&DC to generate additional savings. See Appendix C for the monetary
 impact calculation.

 Table 7 lists the Central Station and the additional two stations that management could
 relocate into the St. Petersburg P&DC7.

                Table 7: Potential St. Petersburg P&DC Consolidation Candidates

                                                                           Interior                   Potential
                                                                           Square                     Present
                                                            Distance         Feet                     Value of
                                                              from        Required                    Savings
                                             Type of          P&DC            for     Type of         Over 10
           Facility Name                     Facility        (Miles)      Carriers    Property         Years
St. Petersburg Central Station               Station           3.0          7,490      Leased        $8,778,225
St. Petersburg Cross Roads Station           Station           4.0          8,530      Owned        $11,862,484
St. Petersburg Gulfwinds Station             Branch            3.0          6,580      Owned         $9,960,701

 We concluded that if the Suncoast District initiated consolidation actions, there is an
 opportunity to realize savings of over $11 million over a 10-year period.

 Combining retail functions and processing facility functions could lead to substantial
 savings and efficiencies for the delivery and retail operations. See Table 8 for functions
 and floor plan requirements.




 7
     The St. Petersburg P&DC has a MPO with a retail counter and lobby.


                                                           17
Excess Space in Mail Processing Facilities                                         EN-AR-11-001
 in the Suncoast District



                  Table 8: Potential Candidates Floor Plan Requirements

                                              Retail             P.O.   Workroom   Carrier
                Facility Name                Counter    Lobby   Boxes    Floor     Stations
     St. Petersburg Central Station                               X        X          X
     St. Petersburg Crossroads Station                           X         X          X
     St. Petersburg Gulfwinds Station                            X         X          X

See below for potential candidate relocation options:

Option A: Move St. Petersburg Central Station into the St. Petersburg MPO and P&DC.
The Postal Service could save approximately $8.8 million over a 10-year period. The St.
Petersburg plant has a Delivery and Retail unit at the P&DC. Therefore, the facility would
only have to relocate the Post Office boxes and carrier section to the plant. The Postal
Service is already considering this option.

Option B: Move St. Petersburg Crossroads Station into the St. Petersburg MPO and
P&DC. This could save approximately $12 million over a 10-year period.

Option C: Move the St. Petersburg Gulfwinds Station into the St. Petersburg MPO and
P&DC. The Postal Service could save approximately $10 million over a 10-year period.

After moving the St. Petersburg Central Station, only one of the other two options may be
feasible due to the amount of available excess space.




                                                   18
Excess Space in Mail Processing Facilities                                                                                       EN-AR-11-001
 in the Suncoast District

                                                                         APPENDIX C: MONETARY IMPACTS
                                                                                     Funds Put To Better Use
Manasota P&DC
                    Project year                10‐Year Total                                                                10‐Year Total 
                     Fiscal year                 2011 ‐ 2020                                                                   2011 ‐ 2020 


Sarasota Southgate Station‐ Option A                                   Sarasota Glengarry Station ‐ Option B
Lease Expires 08/2013                                                  Lease Expires 10/2018 
Lease Savings                                       $1,538,218         Lease Savings                                             $601,642                                                                             
                                                                                                                                                                                                                      
Utility Savings                                       $316,148         Utility Savings                                           $640,807                                                                             
Transportation Savings                                $602,173         Transportation Savings                                  $1,899,002
Labor                                                                  Labor 
Custodial Savings                                   $1,547,413         Custodial Savings                                       $1,547,413
Build‐Out Cost                                       ($800,000)        Build‐Out Cost                                           ($800,000)                                                                            
Total                                               $3,203,952         Total                                                   $3,888,865                                                                             
Discounted at Postal Service cost of capital        $ 2,397,406        Discounted at Postal Service cost of capital            $2,947,122
2010 Present value of cost savings                  $2,397,406         2010 Present value of cost savings                      $2,947,122                                                                             

Mid-Florida P&DC
    Project year                                10‐Year Total                                                              10‐Year Total                                                          10‐Year Total 
 
     Fiscal year                                 2011 ‐ 2020                                                               2011 ‐ 2020                                                            2011 ‐ 2020 
                                                                                                                                                  Lake Monroe MPO & Sanford Carrier Annex–
Lake Mary  MPO – Option A                                              Longwood MPO– Option B                                                     Option  C
Owned                                                                  Owned  
Appraised Property Value                            $1,500,000         Purchase  Value                                         $3,200,579          MPO ‐ Owned, Purchase Value                       $658,935 
                                                                                                                                                   Annex – Lease Expires 05/2021 ‐  Savings                $0 
Utility Savings                                       $315,572         Utility Savings                                           $440,343          Utility Savings                                   $417,738 
Transportation Savings                                $342,324         Transportation Savings                                    $814,874          Transportation Savings                            $833,043 
Labor                                                                  Labor                                                                       Labor                                                          
Custodial Savings                                   $1,563,325         Custodial Savings                                       $1,563,325          Custodial Savings                                 $781,662 
Build‐Out Cost                                       ($800,000)              Build‐Out Cost                                    ($800,000)          Build‐Out Cost                                  ($800,000)  
Total                                               $2,921,221         Total                                                   $5,219,120          Total                                           $1,891,378 
Discounted at Postal Service cost of capital        $2,464,875         Discounted at Postal Service cost of capital            $4,586,523          Discounted at Postal Service cost of capital     $1,507,190 
2010 Present value of cost savings                  $2,464,875         2010 Present value of cost savings                      $4,586,523          2010 Present value of cost savings               $1,507,190 

St Petersburg P&DC
                                                                                                         19
                                                                                               Restricted Information
    Excess Space in Mail Processing Facilities                                                                                                EN-AR-11-001
    in the Suncoast District

    Project year                                     10‐Year Total                                                              10‐Year Total                                                             10‐Year Total 
 
     Fiscal year                                      2011 ‐ 2020 
                                                            
                                                                                                                                 2011 ‐ 2020 
                                                                                                                                     
                                                                                                                                                                                                           2011 ‐ 2020 
                                                                                                                                                                                                                                             
St Petersburg Central Station –                                               St Petersburg Cross Roads Station –                                            St Petersburg Gulfwinds Station–  
Option A                                                                      Option B                                                                       Option C 
Leased‐ Expires 04/2013                                                       Owned                                                                          Owned                                                                      
Lease Savings                                            $2,011,738           Purchase  Value                                            $2,317,181          Purchase  Value                                 $2,865,006             
Utility Savings                                           $504,385            Utility Savings                                             $521,139           Utility Savings                                   $485,165             
Transportation Savings – PVS Driver                       $830,866            Transportation Savings – PVS Driver                         $830,866           Transportation Savings – PVS Driver               $830,866             
Labor                                                                         Labor                                                                          Labor                                                              
Clerk Savings – (9) positions over 2 yrs.                $7,211,101           Clerk Savings – (13) positions                            $10,253,249          Clerk Savings – (9) positions over 2 yrs.       $7,211,101             
                                                                                                                                                                                                                                        
Custodial Savings – (1) position                          $781,662            Custodial Savings – (1) position                             $781,662          Custodial Savings– (1) position                $781,662 
Build‐Out Cost                                           ($300,000)           Build‐Out Cost                                            ($300,000)            Build‐Out Cost                                ($300,000)                  
Total                                                  $11,039,753            Total                                                     $14,404,097           Total                                        $11,873,800                   
                                                                              Discounted at Postal Service cost of                                           Discounted at Postal Service cost of            $9,960,701             
Discounted at Postal Service cost of capital             $8,778,225           capital                                                   $11,862,484          capital 
2010 Present value of cost savings                      $8,778,225            2010 Present value of cost savings                        $11,862,484          2010 Present value of cost savings              $9,960,701             


                                                                                            Potential Savings Range
 
                                                                                                                                                           Minimum               Maximum
                                                                       Potential Candidates For                                                            Potential             Potential
                                     P&DC Name                         Consolidation/Relocation                         Options             Savings        Savings               Savings
                                      Manasota                         Sarasota Southgate Station                         A                  $ 2,397,406    $2,397,406
                                      Manasota                         Sarasota Glengarry Station                         B                  $2,947,122                            $ 2,947,122

                                     Mid-Florida                       Lake Mary MPO                                      A                  $2,464,875
                                     Mid-Florida                       Longwood MPO                                       B                  $4,586,523                              4,586,523
                                     Mid-Florida         Lake Monroe MPO and the Sanford Carrier Annex                    C                  $1,507,190       1,507,190

                                    St. Petersburg                  St. Petersburg Central Station                        A                  $8,778,225       8,778,225
                                    St. Petersburg               St. Petersburg Cross Roads Station                       B                 $11,862,484                            11,862,484
                                    St. Petersburg                St. Petersburg Gulfwinds Station                        C                  $9,960,701
                                                                             TOTAL                                                                         $12,682,821            $19,396,129




                                                                                                                   20
Excess Space in Mail Processing Facilities                                            EN-AR-11-001
 in the Suncoast District



                            Factors Considered in Determining Monetary Impacts:

Property Values - Ownership of Facility and Term Years
We categorized all facilities in the district and reviewed them by ownership – leased versus owned
property. We considered what is in the best interest of the Postal Service related to facilities with leases
of two or more years remaining.

Utility Costs Associated with Relocation
We used EDW to obtain the utility and fuel expenses from the Financial Performance Report, and used
annual expenses for FY 2009.

Transportation Costs Associated with Route Changes
We used the TCSS database to pull the Highway Contract Routes to obtain transportation costs
associated with the Manasota and Mid-Florida P&DCs. We used the VITAL for the Postal Vehicle
Service routes associated with the St Petersburg P&DC and we used the Decision Analysis Report
(DAR) Workhour Rates for FYs 2009 - 2011 to obtain cost for PVS personnel rates.

Labor and Maintenance Costs Associated with Relocation
We used DAR Workhour Rates for FYs 2009 - 2011 to obtain maintenance cost for custodial personnel
rates. We realized that some delivery and retail units use the custodians from the P&DC.

Build-Out Costs Associated with Implementing Optimization Actions
The $300,000 build-out cost for the St. Petersburg P&DC was approved in the Postal Facility Space
Optimization studies in the Southeast Area. The Southeast Area furnished the Manasota and Mid-
Florida build-out costs. During our interview with Southeast Area management, they stated the cost
would be from $500,000 to $800,000. We used build-out costs of $800,000 in our analyses for the
Manasota and Mid-Florida P&DCs.

Costs Associated with Relocating Carriers
Although we were unable to determine the costs associated with moving the carriers, we limited our
relocation candidates to within a 10-mile radius from the plants to minimize the costs and impacts.




                                                       21
                                             Restricted Information
Excess Space in Mail Processing Facilities                           EN-AR-11-001
in the Suncoast District


                                 APPENDIX D: MANAGEMENT’S COMMENTS




                                                22
Excess Space in Mail Processing Facilities        EN-AR-11-001
in the Suncoast District




                                             23
Excess Space in Mail Processing Facilities        EN-AR-11-001
in the Suncoast District




                                             24
Excess Space in Mail Processing Facilities        EN-AR-11-001
in the Suncoast District




                                             25
Excess Space in Mail Processing Facilities        EN-AR-11-001
in the Suncoast District




                                             26
